HHS/OIG, Audit - "Audit of the Post Retirement Benefit Costs Claimed by Wellmark, Inc.," (A-07-02-03035)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Post Retirement Benefit Costs Claimed by Wellmark, Inc.,"
(A-07-02-03035)
February 21, 2003
Complete Text of Report is available in PDF format
(951 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The purpose of this review was to determine the allowability of $717,106 in
post retirement benefit (PRB) costs claimed for Medicare reimbursement by Wellmark,
Inc. (Wellmark).  The $717,106 represents PRB costs that will be incurred
subsequent to the termination of Wellmarks Medicare contract.  The review
showed that the claimed costs are unallowable for Medicare reimbursement and
we recommend that Wellmark withdraw the claim.  Wellmark disagreed with
our report, asserting that the application of prior unclaimed administrative
costs (approximately $1.8 million) offsets our recommendation to withdraw the
claim for PRB costs.